<html>
<title> - GLOBAL ANTI-POACHING ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                        GLOBAL ANTI-POACHING ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2494

                               __________

                             JUNE 25, 2015

                               __________

                           Serial No. 114-78

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ____________
                                 
                                 
                      U.S GOVERNMENT PUBLISHING OFFICE
95-247PDF                    WASHINGTON : 2015                      
______________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>  
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2494, To support global anti-poaching efforts, strengthen 
  the capacity of partner countries to counter wildlife 
  trafficking, designate major wildlife trafficking countries, 
  and for other purposes.........................................     2
  Amendment in the nature of a substitute to H.R. 2494 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    20
      Amendment to the amendment in the nature of a substitute to 
        H.R. 2494 offered by the Honorable Edward R. Royce.......    38
      Amendment to the amendment in the nature of a substitute to 
        H.R. 2494 offered by the Honorable Alan Grayson, a 
        Representative in Congress from the State of Florida.....    39
      Amendment to the amendment in the nature of a substitute to 
        H.R. 2494 offered by the Honorable Ted Poe, a 
        Representative in Congress from the State of Texas.......    42

                                APPENDIX

Markup notice....................................................    46
Markup minutes...................................................    47
Markup summary...................................................    49

 
                        GLOBAL ANTI-POACHING ACT

                              ----------                              


                        THURSDAY, JUNE 25, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up H.R. 2494, the 
Global Anti-Poaching Act.
    And, without objection, all members may have 5 days to 
submit statements for the record and any extraneous materials 
regarding this bill.
    And, without objection, the bill is considered read and 
open for amendment at any point.
    [H.R. 2494 and the amendment in the nature of a substitute 
follow:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. And I will begin by recognizing myself and 
any other members seeking recognition to speak on the 
underlying bill. And then we will move to consider any 
amendments that the members here may have.
    And I would just like to thank the chairs, our ranking 
member, Mr. Engel, the ranking members of the subcommittees, 
because we had a number of individuals work on this 
legislation, including the members of the Terrorism, 
Nonproliferation, and Trade Subcommittee, and the Africa 
Subcommittee. Mr. Poe held a hearing to highlight the 
connection between terrorism and wildlife trafficking. I would 
also like to thank Worku Gachou on our staff for his important 
work on this antitrafficking legislation.
    Wildlife trafficking and poaching, frankly, has become a 
serious national security threat to the United States, and you 
can see that the modus operandi used by the Janjaweed coming 
out of north Africa, or by the Al Shabaab in Somalia, or, 
frankly, by Joseph Kony and his recruitment of child soldiers. 
The objective is the same: To get their hands on an asset here 
in terms of rhino horn or in terms of ivory tusk from an 
elephant. But in so doing, in getting the hard currency for 
their terrorist operations, what they are doing is 
extinguishing these species.
    And because of poaching, some of the world's most majestic 
animals, forest elephants, elephants at large, rhinos, are 
being decimated, and the terrorists are the ones benefiting. So 
it has very high-profit margins. It has minimal risk, and this 
illicit wildlife trade has become a blood currency for 
transnational gangs and criminal syndicates. It is a lot like 
blood diamonds were some years ago for al-Qaeda.
    If we look at the numbers, it is not hype to ask, ``Do we 
want our children to grow up in a world without these species, 
without any elephants or rhinos?'' Because that is where we are 
headed. Between 1990 and 2005, an average of 14 rhinos were 
killed annually by poachers in South Africa. Last year, if we 
look at the losses from poaching, we have 1,200 killed in one 
country. So these species will be eliminated if we do not take 
decisive action against these organized criminal networks that 
are targeting rhino horn and ivory.
    The committee has held several hearings and briefings on 
this issue in which we learned that a number of rebel groups 
and terrorist organizations made big profits because they are 
trading ivory for guns. Park rangers are being outmaneuvered 
and outmatched by today's poachers, who have sophisticated 
transportation and communications equipment, and some poachers 
kill in mass numbers. They use helicopters. They use automatic 
weapons from those helicopters. This bipartisan legislation 
will help even out the fight by granting the President 
authority to provide vital security assistance, including 
vehicles, as well as intelligence and surveillance tools.
    In addition, we know that designating foreign governments 
that aren't doing their part can be very effective for bringing 
about change. This bill will prod countries to take action by 
naming and shaming, as we do with human rights and human 
trafficking reports. And we also make this notorious business 
riskier, by making wildlife trafficking an offense under 
racketeering and money laundering statutes, going after the 
network and taking any profits through forfeitures.
    The legislation also directs that any seized assets from 
these new penalties go toward the conservation of the very 
species that was trafficked. This legislation has been a 
collaborative process with other key committees, NGOs, and 
interested organizations as well as with the administration. I 
look forward to its quick passage in the fight against poaching 
and to save these species. I just remind everyone, time is not 
on our side.
    I will now recognize any members on the underlying bill. Do 
any members seek recognition?
    Hearing no further requests to speak, we will now move to 
consider any amendments.
    I have an amendment at the desk.
    The clerk will report the amendment.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 2494 offered by Mr. Royce of California. 
Page 9, after line 17, insert the following: (f) Sunset. This 
section shall terminate on the date that is 5 years after the 
date of the enactment of this Act.
    Chairman Royce. Without objection, the reading is dispensed 
with. Okay.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Royce. So I recognize myself to speak on the 
amendment. This is pretty straightforward. It would sunset the 
name-and-shame list of troubling countries under section 5 of 
the bill after 5 years. As members know, too many requests get 
put into law and last forever, and I think the 5-year 
termination will prevent that from happening and bring the bill 
into compliance with rules for the House floor. Plus, it will 
give the committee the opportunity after a few years to 
evaluate the Department's use of this designation requirement 
and improve the requirements, if necessary, at that time.
    Do any members seek recognition to speak on this amendment?
    Hearing none, no further speakers, the question occurs on 
the amendment.
    All those in favor, say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it.
    And the item is considered en bloc or agreed to.
    Are there any other amendments?
    Hearing no further amendments----
    Mr. Grayson. I have an amendment at the desk.
    Chairman Royce. Mr. Grayson.
    Mr. Grayson. Go ahead.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 2494 offered by Mr. Grayson of Florida. Page 
11, after line 5, insert the following: (e) Rule of 
Construction. Nothing in this section shall be construed to 
authorize the use of United States Armed Forces in combat 
activities. Page 11, line 6, strike ``(e)'' and insert ``(f)''.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Royce. I am recognizing Mr. Grayson for what time 
he might consume.
    Mr. Grayson. Thank you, Mr. Chairman.
    I will try to keep this as short as possible. I understand 
we have votes now. Poaching is a very serious problem, and, 
frankly, it is one of the great elements of being on this 
committee to see us taking such constructive action in this 
regard. One of my fondest moments was to visit gorillas in 
their natural habitat a couple of years ago. I will always 
remember what that was like. They are down to fewer than 700 in 
the wild now. And like many other large species, charismatic 
species, if you will, they might not be there for much longer. 
So I think that we are doing something extremely constructive 
today. I applaud your effort.
    I am offering this amendment for a specific, very limited 
purpose. The amendment states as follows: Nothing in the 
section shall be construed to authorize the use of the United 
States Armed Forces in combat activities.
    I think it is important to state as a principle explicitly 
in this bill exactly what we are doing but also what we are not 
doing. We wouldn't want to see U.S. forces entangled in combat 
activities as a result of fighting poaching. That is, in 
essence, a declaration of war. We don't want to do something 
like that by accident.
    I did notice that the bill includes the section 47 Arms 
Export Control Act definitions of some of the more sensitive 
elements of the bill, for instance, defense services, training, 
and so on. But when it comes to war, I think we have to use 
belt and suspenders. That is why I offered this amendment.
    I yield.
    Chairman Royce. If I could recognize myself because I 
appreciate the gentleman's explanation.
    And I don't think, on balance, we should adopt this 
amendment, and I will walk you through the process why. The 
security assistance authorized in this legislation is typical 
of the type of security assistance that this committee supports 
on a routine basis without this concern. And, in fact, I don't 
recall having a provision like this in legislation that the 
committee has carried in the past.
    So I agree with the gentleman's sentiment here. The War 
Powers Act, though, makes it crystal clear, and let me read 
from the act: The authority to introduce the U.S. Armed Forces 
into hostilities shall not be inferred from any provision of 
law unless there is a specific authorization.
    So, first of all, it is not inferred here in the first 
place, but even if it was, the War Powers Act says, ``to 
introduce the U.S. Armed Forces into hostilities shall not be 
inferred from any provision of law unless there is a specific 
authorization,'' which does not exist.
    Clearly, there is nothing in this bill that does authorize 
the use of force, and given possible sensitivities--and this is 
the aspect of this that concerns me--given the possible 
sensitivity surrounding our assistance in Africa, I am not sure 
that this type of language does not raise suspicions about our 
activities. We want African countries taking advantage of this 
assistance, not fighting off false rumors of military 
operations. And that is the concern that I would derive from 
the amendment.
    I am concerned that the gentleman's language, despite his 
agreeable intentions, would raise concerns, would raise 
misunderstandings, where none are warranted. So I would ask for 
a no vote on the amendment.
    Chairman Royce. Yes, any other members?
    Yes, Mr. Lowenthal. Alan Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    I would like to yield my time to Mr. Grayson to respond.
    Chairman Royce. Yes. Mr. Grayson.
    Mr. Grayson. Thank you, I appreciate what the chairman is 
saying, and I appreciate the clarification. Every word that we 
say here is recorded for posterity. The words that we state are 
a part of the legislative history that is associated with this 
bill. I appreciate the chairman's insight regarding this issue. 
If the chairman is specifically saying that this bill could not 
be used to justify any combat forces being introduced as a 
result of this bill, I accept what he is saying.
    Chairman Royce. Let me add to that, Mr. Grayson, because I 
think what I propose, if I could ask you this.
    Mr. Grayson. I will yield.
    Chairman Royce. If we were to go to a floor and we did a 
colloquy on this very subject, would that give you added 
assurance in terms of the intention?
    Mr. Grayson. Yes, it would. And my goal is very simple: To 
see that this bill not become an excuse even inadvertently for 
the tragedy of war in the name of saving the lives of animals.
    So I accept the chairman's generous proposal, and with that 
in mind, I will withdraw my amendment.
    Chairman Royce. I ask unanimous consent. Without objection. 
Very good.
    Mr. Grayson, thank you and we will have that colloquy on 
the floor.
    I think Mr. Poe has an amendment.
    Mr. Poe. Mr. Chairman, I have an amendment.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 2494 offered by Mr. Poe of Texas. At the end 
of the following: Section 9. Other actions relating to wildlife 
trafficking programs. It is the sense of Congress that the----
    Mr. Poe. Mr. Chairman, I ask unanimous consent to dispense 
with the reading of the amendment.
    Chairman Royce. Without objection.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Royce. Mr. Poe is recognized.
    Mr. Poe. Thank you, Mr. Chairman. I want to make it clear 
that I support the bill. I am a cosponsor to the bill. One of 
the issues that I am concerned about, as other members, based 
upon the fact that I am chair of the Subcommittee on Terrorism, 
is the trafficking of wildlife, rhino horns and tusks of 
elephants in Africa, by terrorist groups.
    A couple of quick statistics: In the 1930s, there were 3 
million to 5 million elephants in Africa, 3 million to 5 
million. Now, there are 300,000 to maybe 500,000 elephants. The 
rhino population has diminished so quickly that we may see in 
our lifetime no rhinos. There are only five white rhinos left 
in the world, and many of them are being poached and killed by 
terrorist groups. How many, we don't know. We don't know who 
all is involved in the harvesting and killing of rhinos and 
elephants.
    So this amendment is very simple. It tells the State 
Department to evaluate our aid in wildlife trafficking in 
Africa, and find out exactly what is working and what is not. 
And that is this amendment, and I would ask that the chair 
support the amendment so that we have the State Department 
doing an evaluation. Separately USAID does their own, but State 
Department doesn't do an evaluation. So we ask that our money 
be evaluated on how it is working or whether it is not working 
with the goal to stop wildlife trafficking with emphasis on 
these terrorist groups and locating them, how much resources 
they are using, and what they are doing to harvest rhino horns 
and elephant tusk because of the ever-decreasing numbers of 
these species.
    I yield back to the chair.
    Chairman Royce. I appreciate the gentleman's amendment and 
his work also to develop and implement a learning agenda to 
improve the performance and impact of wildlife trafficking 
programs and to share best practices among executive branch 
agencies. I think the totality of this is very much in keeping 
with what we would like to achieve with the legislation.
    And so if I don't hear any further requests to speak on the 
amendment, then the question occurs on the amendment.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it.
    And the amendment is agreed to.
    Hearing no further amendments, the Chair now moves that 
H.R. 2494, as amended, be adopted by the committee.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it.
    The bill, as amended, is agreed to.
    And, without objection, H.R. 2494, as amended, is ordered 
favorably reported as a single amendment in the nature of a 
substitute. Staff is directed to make technical and conforming 
changes. And the Chair is authorized to seek consideration 
under suspension of the rules.
    And I, again, want to thank Ranking Member Engel, our 
cosponsors, and all of our committee members for their 
contributions to today's markup.
    And I will remind the members that we have 1 minute and 11 
seconds left in the vote.
    We stand adjourned. Thank you.
    [Whereupon, at 10:24 a.m., the committee was adjourned.]
                                     
                                     

                            A P P E N D I X

                              ----------
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
